No. 21-365

 

 

In THE
Supreme Court of the Anited States

BRANCH BANKING & TRUST COMPANY.,

Petitioner,
Vv.
SEVIER COUNTY SCHOOLS
FEDERAL CREDIT UNION, e# al.,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

MOTION FOR LEAVE TO FILE BRIEF
AMICI CURIAE AND BRIEF AMICI CURIAE OF
AMERICAN BANKERS ASSOCIATION,
BANK POLICY INSTITUTE, CHAMBER OF
COMMERCE OF THE UNITED STATES OF
AMERICA, AND CONSUMER BANKERS
ASSOCIATION IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the brief contains
5,711 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

The motion contained within this publication has 853 words.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 12, 2021.

 

Wilson-Epes Printing Co., Inc.
